HHS/OIG-Audit--"Audit of Termination and Severance Costs - Medicare Part A and Part B - Aetna Life Insurance Company, (A-01-98-00509)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Termination and Severance Costs - Medicare Part A and Part B - Aetna Life Insurance Company," (A-01-98-00509)
December 7, 1998
Complete
Text of Report is available in PDF format (1.33 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Aetna Life Insurance Company terminated its Medicare Parts A and B contracts as of September 30, 1997. This final
audit report points out that Aetna claimed unallowable costs per Medicare program regulations totaling approximately $1
million in association with the closing of these contracts. We recommended financial adjustments which the Health Care
Financing Administration used in negotiating a final settlement with Aetna.